f^

|] f,3, p iv a r

v_'; L "~U lj WJuL\'i/':a.ii-

IN THE
SUPREME COURT OF UNITED STATES

FILED..

TERM

mar

AARON LAROSE,

ofl 2021

Petitioner,

vs.
STATE OF MISSOURI,
Respondent.
PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES SUPREME COURT

PRO SE:
AARON LAROSE
#1223972
E.R.D.C.C.
2727 Highway, K
BONNE TERRE, MO

63628

tf

QUESTIONS PRESENTED
I.

WHETHER THE CIRCUIT COURT OF ST.CHARLES COUNTY MISSO-

URI, THE MISSOURI COURT OF APPEALS FOR THE EASTERN DISTRICK, AND
THE MISSOURI SUPREME COURT, DENIED PETITIONER, DUE PROCESS, EQUAL
PROTECTION OF THE LAW, AND ACCESS TO THE COURTS, AS THOSE COURTS
REFUSED TO CORRECTLY APPLY MATERIALITY OF BRADY V. MARYLAND 373
U.S. 83 (1963), WHILE REFUSING/DENYING PETITIONERS BRADY V. MARY­
LAND CLAIM. WHEN THE RECORD UNDISPUTEDLY SHOWED THAT THE STATE
SUPPRESSED MATERIAL INFORMATION, COMPRIZED OF A 1983 LAWSUIT
WHICH WAS WON BY THE PLAINTIFF AGAINST OFFICER HUNT AND ST.CHARL­
ES COUNTY, ALONG WITH A CRIMINAL INVESTIGATION INTO OFFICER HUNT
WHICH LEAD TO A CONVICTION, AND THAT MANY GOVERNMENT AGENCIES,
POLICE DEPARTMENTS KNEW OF BOTH THE LAWSUIT AND CRIMINAL INVESTI­
GATION INTO OFFICER CHRISTOPHER HUNT.

II.

WHETHER THE CIRCUIT COURT OF ST.CHARLES COUNTY MISS-

OURI, THE MISSOURI COURT OF APPEALS FOR THE EASTERN DISTRICK, AND
THE MISSOURI SUPREME COURT, DENIED PETITIONER, DUE PROCESS, EQUAL
PROTECTION OF THE LAW, AND ACCESS TO THE COURTS, AS THOSE COURTS,
INCORRECTLY APPLIED THE "KNOWN PERJURED TESTIMONY" AND FALSE EVI­
DENCE/TESTIMONY OF NAPUE V. ILLINOIS 360 U.S. 264 (1959), WHILE
REFUSING TO CONSIDER SOME/ALL THE MATERIAL FACTS OF VIDEO'S AND
TIMELIMITS IN ORDER TO CORRECTLY APPLY NAPUE. WHEN THE RECORD IS
CLEAR THAT THE TIMES ON THE VIDEO'S, THE VIDEO'S AND THE TIME OF
THE ACTUAL PHONE CALL BY THE VICTIM, PROVES THE KNOWN PERJURED
TESTIMONY OF STATE WITNESS, AMBER KEYS.
III.

WHETHER THE CIRCUIT COURT OF ST.CHARLES COUNTY MIS-

SOURI, THE MISSOURI COURT OF APPEALS FOR THE EASTERN DISTRICK,
AND THE MISSOURI SUPREME COURT, DENIED PETITIONER, DUE PROCESS,
EQUAL PROTECTION OF THE LAW, AND ACCESS TO THE COURTS, AS THOSE

'A
I*

COURTS REFUSED TO APPLY OR CORRECTLY APPLY "FUNDAMENTAL FAIRNESS"
TO PETITIONERS CLAIMS, EVEN AFTER ACKNOWLEDGING THEIR OWN EXCEPT­
ION TO RAISE DISCOVERY VIOLATIONS IN A 29.15 PCR, WHICH WAS FOR
FUNDAMENTAL FAIRNESS RIGHTS. WHEN THE RECORD SHOWS PETITIONER WAS
DENIED BEING ABLE TO PUT ON A COMPLETE DEFENSE AS THE STATE REFU­
SED DISCOVERY OF VIDEOS AND TIMED TRAVEL ROUTES AND MORE.
WHETHER THE CIRCUIT COURT OF ST.CHARLES COUNTY MISS­
IV.
OURI, MISSOURI COURT OF APPEALS OF THE EASTERN DISTRICK, AND THE
MISSOURI SUPREME COURT, DENIED PETITIONER, DUE PROCESS, EQUAL
PROTECTION OF THE LAW, AND ACCESS TO THE COURTS, AS THOSE COURTS
REFUSED TO CORRECTLY APPLY, STRICKLAND V. WASHINGTON 466 U.S. 668
(1984) TO COUNSELS DUTIES, AND FAILED TO CORRECTLY APPLY THE PRE­
JUDICE PRONG. WHEN THE RECORD UNDENIABLY SHOWS THAT TRIAL COUNSEL
REFUSED/FORGOT TO CALL AN ALIBI WITNESS THAT WOULD/DOES CORROBOR­
ATE ANOTHER ALIBI WITNESS, BOTH OF WHICH PETITIONER DOES NOT PER­
SONALLY KNOW, COUNSEL REFUSED TO PUBLISH TWO VIDEOS TO THE JURY
TO DECIMATE THE STATES CASE, AND COUNSEL STIPULATED TO THE CHAIN
OF CUSTODY TO A DETECTIVE DAN MAIXNER'S VIDEO SURVEILLANCE.
V.

WHETHER THE CIRCUIT COURT OF ST.CHARLES COUNTY MISSO­

URI, THE MISSOURI COURT OF APPEALS FOR THE EASTERN DISTRICK, AND
THE MISSOURI SUPREME COURT, DENIED PETITIONER, DUE PROCESS, EQUAL
PROTECTION OF THE LAW, AND ACCESS TO THE COURTS, AS THE MISSOURI
APPEALS COURT AND SUPREME COURT, ACKNOWLEDGED IN THEIR OPINION
AND JUDGEMENT, THAT PETITIONERS 29.15 PCR APPOINTED COUNSEL DID
NOT INCLUDE SPECIFIC MATERIAL FACTS IN THEIR AMENDED MOTION AND
THEREFORE DENIED THE CLAIMS AND 29.15 PCR, DENYING PETITIONER
EFFECTIVE ASSISTANCE/ADEQUATE ASSISTANCE OF 29.15 PCR COUNSEL IN
THE PCR'S INITIAL COLLATERAL ATTACK, AS DECIDED IN, MARTINEZ V.
RYAN 132 S.Ct 1309 (2012).

>

VI.

WHETHER THE CIRCUIT COURT OF ST.CHARLES COUNTY MISS­

OURI, THE MISSOURI COURT OF APPEALS FOR THE EASTERN DISTRICK, AND
THE MISSOURI SUPREME COURT, DENIED PETITIONER, DUE PROCESS, EQUAL
PROTECTION OF THE LAW, AND ACCESS TO THE COURTS, AS THOSE COURTS
DENIED PETITIONER 29.15 PCR RELIEF AFTER THE MOTION COURT JUDGE
ADMITTED ON RECORD THAT AN ALIBI WITNESS, DENNIS DELBRUGGIE, WHO
PETITIONER DOES NOT PERSONNALLY KNOW, AND THAT DEFENSE TRIAL COU­
NSEL REFUSED/FORGOT TO CALL, "THAT HIS TESTIMONY WOULD OF INFACT
CORROBORATED THE OTHER ALIBI WITNESS, PATTY CONKLIN". WHEN THE
RECORD SHOWS THAT PATTY CONKLIN PLACED PETITIONER AT A PARK WHERE
PETITIONER TOLD POLICE HE WAS AT, AROUND 2P.M., WHICH PROVES PET­
ITIONERS INNOCENCE AND CORROBORATES THE TACO BELL VIDEO.
VII.

WHETHER THE CIRCUIT COURT OF ST.CHARLES COUNTY MIS-

SOURI, THE MISSOURI COURT OF APPEALS FOR THE EASTERN DISTRICK,
AND THE MISSOURI SUPREME COURT, DENIED PETITIONER, DUE PROCESS,
EQUAL PROTECTION OF THE LAW, AND ACCESS TO THE COURTS, AS THOSE
COURTS GROSSLY MISTATED/MADE UP, OR REFUSED, MATERIAL FACTS TO
DENY PETITIONERS 29.15 PCR MOTION, WHEN THE RECORD UNDENIABLY
SHOWS THE TRUE MATERIAL FACTS.
VIII.

WHETHER THE CIRCUIT COURT OF ST.CHARLES COUNTY

MISSOURI, THE MISSOURI COURT OF APPEALS FOR THE EASTERN DISTRICK*
AND THE MISSOURI SUPREME COURT, DENIED PETITIONER, DUE PROCESS,
EQUAL PROTECTION OF THE LAW, AND ACCESS TO THE COURTS, AS THOSE
COURTS DENIED PETITIONER THE ABILITY TO PROPERLY LITIGATE AND
RAISE "ALL" HIS CLAIMS/GROUNDS IN STATE COURTS, OF HOW PETITIONERS
UNITED STATES CONSTITUTIONAL RIGHTS WERE VIOLATED, CLAIMS OF;
PROSECUTORIAL MISCONDUCT OF, KNOWN PERJURED TESTIMONIES], BRADY/
DISCOVERY VIOLATIONS, LYING TO THE JUDGE DURING BENCH ARGUMENTS,
OVER 60 CLAIMS OF PROSECUTORIAL MISCONDUCT AND INEFFECTIVE ASSIS­
TANCE OF TRIAL AND APPELLATE COUNSEL. WHEN THE RECORD SHOWS THAT
PETITIONER DID EVERYTHING HE COULD TO HAVE THESE CLAIMS HEARD.

i'

LIST OF PARTIES
PETITIONER:
AARON LAROSE #1223972
E.R.D.C.C.
2727 HIGHWAY, K
BONNE TERRE, MO 63628

RESPONDENT:
STATE OF MISSOURI

STATE ATTORNEY GENERAL
P.O. BOX 899
JEFFERSON CITY,

MO 65102

i

LIST OF PROCEEDINGS
History from the 29.15 PCR process, to this Certiorari Petition.
-29.15 PCR filed in the Circuit Court of St.Charles County MO,
Case #1411-CC00186, denied 2/13/19.
-29.15 PCR Appeal, Missouri Court of Appeals, Eastern Districk,
Case #ED107728, mandate 12/23/20.
-Rehearing and/or transfer to the Missouri Supreme Court, filed
denied, 10/6/20.
in the Missouri Court of Appeals, ED,
-Application to transfer, in the Missouri Supreme Court,
denied, 12/22/30.
Case #SC98785,
-This Certiorari Petition, from the 29.15 PCR Process.
Other proceedings before the 29.15 process.
-Petitioner was convicted in the Circuit Court of St.Charles
County MO, for 1st degree murder, and armed criminal action,
case #0911-CR-03956-01, sentenced, 6/16/11.
-Direct appeal in the Missouri Court of Appeals, Eastern Districk
Case #ED97043, State v. LaRose 412 S.W.3d 294 (2013).
-Missouri Supreme Court denied transfer,
Case #SC93690, 7/16/2013.
-United States Certiorari, from the direct appeal,
Case #13-8412, denied, N/A.
Other litigations.
-LaRose v. Schneider 133 S.Ct 266 (Oct. 2012).
-Two Federal Removals, filed by someone else on petitioners
behalf, first one filed during the direct appeal, second one
filed during the 29.15 PCR Process, listed in this order.
-4:13-cv-00560-AGF, Federal Districk Court, ED Missouri.
-Appealed, Federal Appeals Court, Case #13-1984.
-4:17-cv-1962-AGF, Federal Districk Court, ED Missouri.
-Appealed. Federal Appeals Court, Case #17-3082.

ii

i

TABLE OF CONTENTS
i

LIST OF PARTIES

ii

LIST OF PROCEEDINGS

iii

TABLE OF CONTENTS

iv

TABLE OF AUTHORITIES
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

3

REASONS WHY THE WRIT SHOULD ISSUE:
. '#' I,
#11,
#
#
#
#
#

-

8
15

-

16
21

III,
IV,
V,
VI,
VII,

-

-

26
30
31

# VIII,

-

34

CONCLUSION

39

PROOF OF SERVICE

40

(A-ZZZ),
APPENDIX,
(WHICH IS APPENDIX, A-Z, THEN, ZZ, THEN, ,ZZZ),

iii

TABLE OF CASES AND AUTHORITIES
Brady v. Maryland, 373 U.S. 83 (1964) -

- -8,9,14
10,19,27,29,33

Buchli v. State, 242 S.W.3d 449 (2007)-

California v. Trombetta,467 U.S. 479 (1984)—18,19,20
--

Clemmons v. Delo, 124 F.3d 944

37

Crawford v. Washington, 541 U.S. 36 (2004)- -25
Davis v. Wechler, 263 U.S. 22,24 -

37

Giglio, 405 U.S. 150 -

9

-

-

-

-

35

Greene v. State,£494 S.W.3d 525 (2016) Kyles v. Whitley, 514 U.S. 419 (1995)

-

9,11,12,13,14

Jackson v. Norman, 2011 U.S. Dist. Lexis
84580, 4:08-cv-0593 ERW/TCM,- - - -

0

Jennings v. Nash, 2020 U.S. Dist. Lexis
7315 case No. 6:18-cv-03261 NKL-

10

Martinez v. Ryan, 132 S.Ct 1309 (2012) -

26,27,28,29

Milke v. Ryan, 711 F.3d 998

9

-

Napue v, Illinois, 360 U.S. 264 (1959) -

15,17

O'Sullivan v. Boerckel, 526 U.S. 838, 845,
119 S.Ct 1728, 144 L.Ed. 2d 1 (1999) -

37

Philip Alberternst v. Christopher E. Hunt,
et al, No. 4:lO-cv-642-JAR,2011 WL 6140888 - - 8
Schlup v. Delo, 513 U.S. 298

6,(Appendix Y)

Schmedeke v. State, 136 S.W.2d 532

31

State v. Carter, . 955 S.W.2d 548

19
-

State v. Hunt, 451 S.W.3d 251 (2014)

8

Strickland v. Washington, 4667U.S. 668 -_ -

21,23,25,31

Summers v. State, 154 S.W.3d 2005

31

Tisius v. State, 183 S.W.3d 207

-

-

-

United States v. Begley, 473 U.S. 667
Wearry v. Cain,

U.S. __; 136 S.Ct 1002
(2016) iv

19
9
10,13,14

t

31

Williams v. State, 8 S.W.3d 217

United States Constitution:
1,5,6,14th Amendments

- 14,17,20,25,29,31,34,
38

US Code:
28 U.S.C.S. § 2254 (A.E.D.P.A.) Missouri Bill of Rights, Artical 1,
sections 14,
-------

37
14,17,20,25,29,31,34,
38

Missouri Supreme Court Rule 29.15, (2014)
28,35

v

IN THE
SUPREME COURT OF THE UNITED STATES
TERM
OPINIONS BELOW
The opinion of the Missouri Supreme Court denying motion to
transfer, was issued, Dec. 22nd 2020, (Appendix A).
The opinion of the Missouri Supreme Court denyiny to accept
petitioners, Pro Se Supplemental Application to Transfer, with a
cover sheet and letter to the court clerk to reconsider, was
issued on, 11/09/20, (Appendix B).
The opinion of the Missouri Supreme Court denying to accept
petitioners, Pro Se Supplemental Application to Transfer, was
issued on, 10/27/20, (Appendix C).
Court of Appeals for the Eastern

The opinion of the Missouri

District, denying transfer to the Missouri Supreme Court issued,
10/06/20, (Appendix D).
The opinion of the Missouri Court of Appeals for the Eastern
District, and Mandate issued, 12/23/20, (Appendix E).
The opinion of the Missouri Court of Appeals for the Eastern
District's order and memorandum supplementing order affirming jud­
gement, issued, 9/1/20, (Appendix F).
The opinion of the Missouri Court of Appeals for the Eastern
District, denying petitioners pro se letter/motion to the court
clerk, with attached pro se supplemental 29.15 PCR appeals brief,
issued, 4/02/20, (Appendix G).
JURISDICTION
The opinions issued by the Missouri Supreme Court, and by the
Missouri Court of Appeals for the Eastern District are final,
The United States Supreme Court has jurisdiction pursuant
to 28 USC 1257, Supreme Court Rule 13.
1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1st Amendment U.S. Constitution
Congress shall make no law respecting an establishment of relig­
ion, or prohibiting the free exercise thereof; or abridging the
freedom of speech, or of the press; or the right of the people
peaceably to assemble, and to petition the Government for a
redress of grievances.
5th Amendment U.S. Constitution
No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a Grand
Jury, except in cases arising in the land or naval forces, or in
the Militia, when in actual service in time of War or public
danger; nor shall any person be subject for the same offence to
be twice put in jeopardy of life or limb; nor shall be compelled
in any criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without
just compensation.
6th Amendment U.S. Constitution
In all criminal prosecutions, the accused shall enjoy the right
to a speedy and public trial, by an impartial jury of the State
and district wherein the crime shall have been committed, which
district shall have been previously ascertained by law, and to
be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defense.
14th Amendment U.S. Constitution
Section 1. All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of the
United States and of the State wherein they reside. No State
shall make or enforce any law which shall abridge the privileges
or immunities of citizens of the United States; nor shall any
State deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdic­
tion the equal protection of the laws.
Article 1 Section 14 Missouri Bill of Rights
That the courts of justice shall be open to every person, and a
certain remedy afforded for every injury to person, property or
character, and that right and justice shall be administered
without sale, denial or delay.

2

STATEMENT OF THE CASE
Aaron LaRose, petitioner here in and charged/tried/sentenced
in the Circuit Court of St.Charles County, Missouri, with the off­
ence of 1st degree murder, RSMo 565.020, (life w/o), and armed cr­
iminal action, RSMo 571.015 (2000), (30 years), running consec.
Petitioner seeks Certiorari from the denial of his 29.15 PCR
process in state courts, after a direct appeal was sought to no
avail, Missouri Court of Appeals ED, State v. LaRose 412 S.W.3d
294 (2013). M0 Supreme Court denied transfer, SC93690, Certiorari
was denied 13-8412. All issues in this petition was raised in the
29.15 PCR process and appealed to the M0 Appeals Court ED, and MO
Supreme Ct.
Petitioner timely filed a pro se 29.15 PCR on

2/28/14, case

#1411-CC00186, (See record on appeal, 29.15 ED107728 documents).
Appointed counsel Ms.Faerber timely filed her amended 29.15 PCR on
12/24/14, (Appendix H). Petitioners 29.15 PCR appeals Brief was
was filed, (Appendix I), at which time petitioner filed a letter/
motion with a pro se 29.15 PCR appeals brief, (Appendix J), then a
motion for rehearing was filed, (Appendix K), all filed in the MO
court of Appeals ED, case #ED107728. An application to transfer in
the MO Supreme Ct, was filed (Appendix L), a pro se application to
transfer in the MO Supreme Ct. was filed, (Appendix M), and a sec­
ond pro se application to tranfer was filed with a cover letter to
the court clerk MO Supreme Court, (Appendix N), case #SC98785.
States first set of findings (Appendix 0), states second set of
findings (Appendix P). MO Appeals Ct. findings denying PCR (Appen­
dix Q). M0 Appeals and Supreme Ct. denied transfer (Appendix D,A).
The Circuit Court of St.Charles County granted an evidence
hearing however limited it to only three claims, out of thirty-one
claims in the amended motion, and over one hundred claims in the
pro se motion. Appointed counsel Ms.Faerber filed motions for dis­
cover, which the state never complied with. Ms.Faerber refused to
3

I

hold the evidence hearing without this video evidence, waiting for
two years, late 2014 through Jan. 2017. In Jan. 2017 Ms.Faerber
went to private firm, and a Scott Thompson was appointed to petit­
ioners case. Mr.Thompson immediately filed for the evidence hear­
ing to commence, notwithstanding the none disclosed video evidence.
Petitioner filed in the Circuit Court of St.Charles County for
substitute counsel and to pause the evidence hearing, denied. The
evidence hearing commenced and petitioner was refused to be at the
hearing and was refused to be involved at all, even after the
judge ordered petitioner to be present by video or deposition, see
(Appendix J.). Petitioner was denied access to the courts and was
silenced.
After the evidence hearing, petitioner filed other motions for
substitute counsel and to keep the record open, which petitioner
asked for a new evidence hearing, as well as to be able to present
all his pro se/amended claims for an evidence hearing and to be
able to present all the evidence to the three claims he was given
a hearing on, these motions denied, see a letter/motion to the
appeals court with attached pro se supplemental 29.15 PCR appeals
brief with an appendix, (Appendix j), but see the appendix of the
supplemental appeals brief for the pro se motions listed above.
Mr.Thompson stated to the court after the hearing in his, find­
ings of facts/law/judgement, that petitioner wants an evidence
hearing on all his claims, pro se/amended, which the Circuit Court
turned a blind eye to.
Mr.Thompson refused to appeal all of petitioners amended claims,
abandoning about twenty of them, he appealed ten out of thirty-one.
Thompson said the courts do not allow a page limit to raise that
many claims. Thompson did file for rehearing in the Missouri Court
of Appeals, Eastern District, and he filed to transfer to the
4

Missouri Supreme Court, which was denied, (Appendix A-G).
During the above 29.15 process, petitioner filed many motions
and petitions with the Circuit Court of St.Charles County, to
attach his pro se 29.15 PCR and all his pro se claims to any amen­
ded motion filed on time or out of time as petitioner refuses to
abandon any claim, all motions denied after consideration. In Jan.
2017 a new judge took over, who took petitioners pro se motion to
consider/reconsider to attach all petitioners pro se claims to the
amended motion as he abandons no claim, and wants an evidence hea­
ring on all his claims, the judge later denied this motion. Petit­
ioner filed many motions for new counsel, to keep the record open,
to grant a new evidence hearing, motion to amend the judgement,
and more so he could raise all his claims in the Missouri Circuit
Court, see the appendix in (Appendix J), all denied.
In

Missouri Court of Appeals, Eastern District, petitioner;

filed a letter/motion with attached pro se supplemental

29.15 PCR

appeals brief, all filed in accordance with their Special Rule
380(c), see (Appendix j). This letter/motion laid out 29.15 PCR
counsels ineffectiveness/inadequateness and submitted in the same
letter/motion all petitioners pro se 29.15 PCR claims, along with
exhibits to prove the claims. The attached 29.15 PCR supplemental
appeals brief laid out all petitioners claims along with an appenix of alot of the motions petitioner filed in the circuit court,
trying to get all his claims heard and adjudicated in state court.
The Missouri Court of Appeals, Eastern District's, Clerk entered
the letter/motion and attached brief, onto the docket sheet and
sent them to the judge, who denied them, see (Appendix G).
Once the Missouri Court of Appeals, Eastern District, denied
the 29.15 PCR appeal, Mr.Thompson filed for a rehearing or to
transfer to the Missouri Supreme Court, denied. Then filed to
5

transfer in the Missouri Supreme Court, denied. At the same time,
petitioner filed a pro se supplemental motion to transfer, in the
Missouri Supreme Court. The clerk sent the pro se motion back to
petitioner with a letter, (Appendix C). Petitioner filed the same
Motion to Transfer, with a letter/motion to the court clerk expla­
ining that every court in Missouri, including the Missouri Supreme
Court has accepted pro se filings when represented by counsel. Pe­
titioner further explained, that he is not afforded a constitutio­
nal right to effective assistance of counsel on a 29.15 PCR appeal
therefore the court should not deny petitioner access to the court
(Appendix N), filed with federal and state case laws to back it up
here in incorporated and reiterated. The pro se motion therefore
was also denied, however petitioner filed in

every state court,

all of his constitutional rights that were violated, before/during
and after trial, likewise petitioner gave ever state court an
opportunity to rule on, hold evidence hearings on, and adjudicate
all his claims, as required by, Federal Habeas Corpus Rule 2254,
and the A.E.D.P.A. (AEDPA) standard of review.
During petitioners attempts to litigate and prove his claims,
petitioner tryed to get all kinds of critical exonerating evidence
into the courts that the jury was denied, as in Schlup v. Delo 513
U.S.298. Evidence such as: Videos which has petitioner on camera
1% hours away from the crime scene, where he arrived after leaving
a court house on camera, proving that he didn't go anywhere else;
Evidence that two park attendents seen petitioner, % mile from the
above camera views also proving where petitioner was; Evidence of
a K-9 unit which picked up petitioners scent at the park where the
park attendents worked also proving petitioners innocence, and
that petitioner told police that he went to this (Taco Bell), on
camera, then to this park, right after leaving the court house,
and this is how the police was able to retrieve this evidence;
6

Evidence of fingerprints on/in the victims car which the perp.
drove from the crime scene, prints that do not match neither the
victim, nor petitioner, and which the state gave known perjured
testimony about throuh state witness Don Smallwood, see questions
and why this writ should issue, number V;

Evidence of foreign

DNA in the victims car on key areas, such as the gear shift, seat
and A/C control, with outside temp, over 93°;

belt

Foreign

DNA under the victims fingernails that did not belong to petitioner, nor the victim, and the state put on evidence that the victim
mostlikely struggled or fought her perp;

Evidence of foreign

DNA in the victims sexual fluids, (from only days before her murd­
Unknown hairs found in the victims car that.the perp.

er) ;
drove;

Unknown hairs and DNA found on the victims cloths;

Evidence that the police, with the order of the prosecutor, denied
a judges order to preserve the victims car, as the police drove
the car around for hours, destroying the critical, exonorating DNA
evidence on key areas that the police had to touch, drivers seat
belt/gear shift and A/C control.Well over a dozen Brady/discovery violations. Please see att­
ached (Appendix ZZZ) for the remaining "Statement Of The Case", as
petitioner had to shorten/shrink this petition. Petitioner had to
shrink facts and evidence even eliminating facts and evidence that
this court should want to know in order to make a decision on this
Writ. Appendix ZZZ is here in incorporated and reiterated.
Note: Appointed counsel also filed a reply brief

to the 29.

15 PCR appeals brief, in the Missouri Court of Appeals,
ED, see (Appendix R). The court opinions, findings of
facts are attached, (Appendix 0,P,Q). Appendix Q is the
most recent from the MO, Ct of Appeals, ED, please see
Appendix Q when this petition refrences the courts
"Opinions".
7

REASONS WHY THE WRIT SHOULD ISSUE
I.

WHETHER THE CIRCUIT COURT OF ST.CHARLES COUNTY MISSO-

URI, THE MISSOURI COURT OF APPEALS FOR THE EASTERN DISTRICK, AND
THE MISSOURI SUPREME COURT, DENIED PETITIONER, DUE PROCESS, EQUAL
PROTECTION OF THE LAW, AND ACCESS TO THE COURTS, AS THOSE COURTS
REFUSED TO CORRECTLY APPLY MATERIALITY OF BRADY V. MARYLAND 373
U.S. 83 (1963), WHILE REFUSING/DENYING PETITIONERS BRADY V. MARY­
LAND CLAIM. WHEN THE RECORD UNDISPUTEDLY SHOWED THAT THE STATE
SUPPRESSED MATERIAL INFORMATION, COMPRIZED OF A 1983 LAWSUIT
WHICH WAS WON BY THE PLAINTIFF AGAINST OFFICER HUNT AND ST.CHARL­
ES COUNTY, ALONG WITH A CRIMINAL INVESTIGATION INTO OFFICER HUNT
WHICH LEAD TO A CONVICTION, AND THAT MANY GOVERNMENT AGENCIES,
POLICE DEPARTMENTS KNEW OF BOTH THE LAWSUIT AND CRIMINAL INVESTI­
GATION INTO OFFICER CHRISTOPHER HUNT.
All Missouri courts above were aware of the "Brady Violation[s]" of, Officer Christopher Hunt's criminal investigation as
well as the 1983 lawsuit against, Hunt, his police department and
the county of St.Charles where Hunt worked, which is the same co­
unty where petitioner was tried and convicted. All the informati­
on about the "criminal investigation" and the "1983 lawsuit" were
listed in petitioners pro se 29.15 PCR, claim (h), the amended
29.15 PCR as claim 8&9(c)(10) see (appendix, H), which is claim X
in the 29.15 PCR appeal see (appendix, I), which is claim X, in
the 29.15 PCR appeals reply brief see (appendix, R), which is
claim X, in the motion for rehearing or transfer see (appendix K),
which is claim X, for the application to transfer in the Missouri
Supreme Court see (appendix L), and the pro se application to
transfer in the Missouri Supreme Court as claim 2(a) see (app. M).
\
The above claims listed Hunt's criminal investigation and
conviction, State v. Hunt 451 S.W.3d 251 (2014), as well as the
civil suit, Philip Alberternst v. Christopher E. Hunt, et al, No.
4:lQ-cv-642-JAR, 2011 WL 6140888,. Hunt's professional conduct
had been in question for years before petitioners trial.
8

When 29.15 PCR counsel tryed to investigate how deep this
hole into Hunt's misconduct[s] went, the prosecutor had the judge
squash all subpoenas, see (appw

see also the motions filed in

the St.Charles County Circuit Court under case #1411-CC00186.
There is no doubt that Hunt had a personnel file stacked against
him as he assulted the same man twice, while on duty as a cop,
see claims and case law listed (supra).
It's cristal clear in the United States Supreme Court Laws,
that a police officers misconduct as an officer on duty, including
his/her personnel files, reprimands, suspensions, demotions, and
the like, are all Brady impeachment material under, Brady v. Mary­
land 373 U.S. 83 (1976), and Milke v. Ryan 711 F.3d 998 (cases
cited), which argues that an officers' personnel files and negative
acts while on duty are Brady/Gjglio/Begley material along with the
case laws in Milke(supra), such as Giglio 405 U.S. 150, and United
States v. Begley 473 U.S. 667 (1985). Meaning this would also enc­
ompass both the criminal investigations

into Hunt's misconduct as

an officer while he took the stand against petitioner as well as
the civil suit where Hunt already gave a deposition in that suit,
and that the Federal Judge already admitted that the suit would
not be dismissed as Hunt assualted the citizen.
All the above material was discovery before petitioners trial.
Moreover the state courts knew this and refused to even comment,
give a ruling, or opinion on the "Brady" violation of the civil
suit against Hunt, when both the civil suit and criminal investig­
ation were mentioned.
Futhermore the Missouri courts wrongly applied materiality of
Brady to the criminal investigation of Hunt in order to deny the
claim, while they simultaneously refused to acknowledge the civil
suit. Futhermore the state courts refused to apply Kyles v. Whitl­
ey 514 U.S. 419 (1995), to these Brady issues, (argued XHxsHhpsKk
9

below). Likewise the courts refused to correctly apply meteriality of Brady and it's effect on the outcome of the "proceedings",
as Brady and, Wearry v. Cain

U.S.

; 136 S.Ct 1002 (2016),

confirm, (argued more below).
Missouri state courts granted relief to a Mr.Jennings on a
Brady violation, refusing to retry him, when his case had alot
more overwhelming evidence against him unlike petitioners case,
such as; blood all over Mr.Jennings cloths, a record of being ab­
usive, his wife was having an affair, and was planning on leaving
him, and she had a gun shot wound to her head and found in their
closet, see Jennings v. Nash, 2020 U.S. Dist. Lexis 7315, case No.
6:18-cv-03261-NKL, and case cites there in. Same in Buchli 242
S.W.3d 449, about discovery violations of video evidence, which
petitioner also has violations of see (infra). Whether those two
were innocent or not petitioner does not know, but he knows he is.
Missouri courts denied petitioner, access to the courts, equal
protection of the laws, and due process, as seen above and below.
Please see (Appendix W), attched here to, for alot more facts
and evidence to this argument, now here in incorporated and reite­
rated. Appendix W, is the Brady claim laidout in detail, along
with the state courts opinions and judgement "refuted", (shown to
be unreasonable). These pages of appendix W, also include, the
states "overwhelming evidence", "REFUTED", which was almost all
hearsay and lies. Please see those 19 pages of appendix W, to
understand this argument more indepth.
Please continue for more issues and argument for this
Question I, and "Reasons why this writ should issue". There was
a break in the pages due to corrections when the clerk sent this
writ back. This was not done on a computer and petitioner could
not cut and post, or "simply" fix the writ.
10

This claim included in it the U.S. Supreme Court Law, Kyles
v. Whitley 514 U.S. 419 (1995), to compel the Missouri courts to
rule on petitioners claim[s], guided by "Kyles" in two areas.
i) To review the cumulative effect of all suppressed evidence
when assessing, "materiality" of petitioners "Brady" claim about
Hunt, see (Appendix _L_,p.8), of the Application to transfer to
the Missouri Supreme Court. As well as defining materiality under
Brady, p.102 of petitioners 29.15 PCR appeals brief,(Appendix I)
XXXXXX and p.72 of petitioners, amended 29.15 PCR motion, case #
(Appendix H). All Missouri courts refused to do this.
Furthermore the Missouri circuit court of St.Charles County,
had "nine" discovery violations in the amended 29.15 PCR, claims
8&9(c)(l) through 8&9(c)(10). New counsel Thompson only appealed
two discovery violations with the Brady violation to the Missouri
Court of Appeals ED and to the MO Supreme Ct, as claims VIII and
IX which were amended claims 8&9(c)(5),(6). Mr.Thompson did advise
the courts that they should consider all discovery violations alowith the Brady, however the courts refused. Missouri courts denied
the above two discovery violations against their own case law and
aginst their own exception of "Fundamental Fairness", see below?
XMBI&XXXXXX "Reasons why this writ should issue # III".
Moreover petitioner filed 27 claims of Brady/discovery viola­
tions in his pro se 29.15 PCR, claims 19-45, which were appealed
pro se in all Missouri courts, as well as the discovery claims
11

Mr.Thompson did not appeal. Mr.Thompson also made petitioners pro
se 29.15 PCR part of the record on appeal and petitioners discove­
ry/Brady violations are listed in "ED107728 documents #139, p.5
through documents #140, p.21, (PCR appeal). Petitioner also inclu­
ded "Kyles" (supra) in his pro se 29.15, for all his discovery/
Brady violations to be taken together as a compound effect, state
courts refused. All claims were presented to every state court,
see arguments on "Questions, and reason why the writ should issue

mxXJEEES&X # VIII", (infra).
ii) Informing the courts under Kyles(supra), that the prosec­
utor has a duty to learn of any favorable evidence known to the
others acting on the governments behalf in the case, including the
police, see page 103 of petitioners, 29.15 PCR appeals brief #ED107728, see also page 72 of petitioners amended 29.15 PCR, case #
1411-CC00186, and petitioners pro se 29.15 listed (supra).
Petitioners amended 29.15 PCR motion informed the courts that
Hunt was part of "MEG" (Multi-Districk Enforcement Group), which
was three different county's of police departments. When Hunt dis­
obeyed direct orders, he also violated search and seizures, and
assulted a citizen while acting in the capacity of the "MEG" group.
When Hunt was being investigated, it was by Missouri Highway Patr­
ol, and Montgomery County Missouri, which was part of the "MEG",
where Hunt actually commited his acts against the citizen. Thus
the St.Charles County prosecutor should have known everything abo­
ut Hunt's criminal investigation, from all the police Dept,'s inv­
olved, (Montgomery County, Warren County, St.Charles County, and
The Missouri Highway Patrol). Likewise the civil suit against Hunt,
2-3 other officers, St.Charles County and it's "police Dept." wou­
ld have/should have put St.Charles County prosecutors on notice of
all the impeachment material against Hunt, which is the same coun­
ty who tried petitioner. Please see (Appendix W),
12

XXKMK for more

argument, facts, and evidence to this issue, as well as the state
courts decision refuted, those pages are incorporated and reitera­
ted here in for Question I argument X&XX380C .
The state completely refused to apply ’’Kyles" (supra) to the
prosecutors duty to disclose this Brady material, saying that the
prosecutor does not have to go on "Fishing Expeditions" to find
and disclose this material. State courts totally refused to apply
"Kyles" (supra) to all the discovery violations, without comment.
Thus denying petitioner access to the courts and equal protection
of the laws, along with due process

(this paragraph is for both

i and ii above).

The Missouri Courts refused to correctly apply "Brady Materi­
ality" to petitioners Brady claim. Petitioners counsel even quoted
Kyles (supra) to help guide the courts. Moreover petitioners coun­
sel argued Brady materiality under Wearry v. Cain

U.S.

136 S.Ct 1002 (2016) in his Application to Transfer to the Missouri Supreme Court as the Missouri State Appeals Court errored in
it's findings, (appendix _L_, p.8). Missouri Courts said that pet­
itioners Brady claim had to result in an acquittal (petitioners
counsels words/brief). Petitioners counsel argued that Brady viol­
ations only had to effect the verdict, and argued that without
Hunt's testimony the worst verdict could have been 2nd degree not
1st degree, because the state used Hunt's testimony to try and
prove, intent/deliberation/ and motive, which the state argued in
closing, trial tr.1019. However this also is to strict as; Hunt's
testimony was hearsay, and he wrote no police report to an issue
he told the jury rose to a level of homicide, thus his testimony
is already questionable, with the impeachment material (supra),
Hunt's testimony would fail, thus the states accusations in clos­
ing trial tr.1019 would fail, and so does intent, deliberation and
13

motive, thus the case fails and the conviction overturned. More­
over, the state denied petitioner of due process when they denied
petitioner this "Brady" material, due process is do petitioner be­
fore liberty can be taken away, therefore, when petitioners due
process was violated, petitioners liberty has to be reinstated.
Please see C&ppendix

, incorporated and reiterated

here in for more argument, facts, and evidence, for (Questions, I,
argument iaxsHbpaKXXXXXS) and issues here in.
Thus the state courts refused to apply to petitioners Brady
Claim, United States Supreme Court Laws under, Brady/Wearry/Kyles
as well as cases cited in petitioners amended 29.15 PCR and appeal
as well as his pro se 29.15 PCR and appeals. Thus denying petitioer of his due process, equal protection of the laws, and access to
courts.
Everything listed above, all proves that petitioner was deni­
ed, his United States Constitutional Amendments numbers 1,5,6,14,
as well as Missouri's Bill of Rights Article 1 sections 14. As
petitioner was denied access to the courts in Missouri with a fair
court system, with equal protection of the Laws, and that right .
and justice be administered to petitioner without sale, denial or
dely. Petitioner was refused justice in Missouri, along with due
process, equal protection of the laws, and since Missouri courts
refused equal protection of the laws, then Missouri courts refused
petitioner access to the courts, as the courts petitioner was in
refused to be just, with equality of law towards petitioner.
Missouri Courts refused to grant petitioner his United States
Constitutional Amendment Rights, and Equal protection of United
States Laws, therefore this United States Petition for Writ of
Certiorari should issue and uphold petitioners constitutional
Amendment Rights.

14

II.

WHETHER THE CIRCUIT COURT OF ST.CHARLES COUNTY MISS­

OURI, THE MISSOURI COURT OF APPEALS FOR THE EASTERN DISTRICK, AND
THE MISSOURI SUPREME COURT, DENIED PETITIONER, DUE PROCESS, EQUAL
PROTECTION OF THE LAW, AND ACCESS TO THE COURTS, AS THOSE COURTS,
INCORRECTLY APPLIED THE "KNOWN PERJURED TESTIMONY" AND FALSE EVI­
DENCE/TESTIMONY OF NAPUE V. ILLINOIS 360 U.S. 264 (1959), WHILE
REFUSING TO CONSIDER SOME/ALL THE MATERIAL FACTS OF VIDEO'S AND
TIMELIMITS IN ORDER TO CORRECTLY APPLY NAPUE. WHEN THE RECORD IS
CLEAR THAT THE TIMES ON THE VIDEO'S, THE VIDEO'S AND THE TIME OF
THE ACTUAL PHONE CALL BY THE VICTIM, PROVES THE KNOWN PERJURED
TESTIMONY OF STATE WITNESS, AMBER KEYS.
Petitioners pro se 29.15 PCR has seven known perjured testim­
ony claims as claims, 12 through 18. All of these claims were app­
ealed pro se in all state courts. All claims relied on Napue(supra) for controlling Law. Appointed counsel only raised two known
perjured testimony claims in her amended 29.15 PCR as claims, 8&9
(c)(ll) and (12), Missouri circuit Court of St.Charles county,
case #1411-CC00186. Counsel'Mr.Thompson only appealed one of these
claims as 29.15 PCR appeal claim XI, case #ED107728 in the Missouri Appeals Court ED

Petitioner will focus on this last claim, but

states that he waives no claim, and prays that this court will
leave this petition open if they will consider the other claims.
Now the state courts said petitioners 29.15 PCR claim 8,&9(c)
(11), appealed as claim XI, is without merit because the Bass Pro
Parking lot is connected to, adjoined the Mobil On the Run Parking
lot, and therefor Keys statements could have still happened. How­
ever the two parking lots "do not" connect, and there is roads,
stop signs, and other parking lots inbetween. Moreover the state
first said that the victim arrived at the Mobil "before" petition­
er, to deny an evidence hearing on the claim, which was a lie, see
(infra), more facts/evidence/argument iRSSKXsd, in (Appendix X).
15

However petitioner is seen on camera at Mobil, inside shopp­
ing, then leaving before the victim pulls up, proving petitioner
was not following, stalking, harassing the victim as Keys told the
jury. Furthermore, at no time was there ever any physical evidence
that the two parking lots connected, but defense trial exhibit A
is a map of the area, which if the courts would have considered,
then they would have seen this and not have relied on false evide­
nce to deny this claim.
Most importantly is the time limits of both the petitioner
and the victim both being seen on camera at the Mobil, along with
the travel times of what Keys alleged, which proves that the
statements of Keys elicited by the state was false. Key's stateme­
nts to the jury said, that the victim was at the Bass Pro and that
petitioner pulled up right next to her, that this scared her and
she took off immediately, driving to the Mobil to be around people
in a public place. The state showed the jury the video of Mobil
but only were the victim pulled up and then left. However petitio­
ner was inside the Mobil doing his own thing, not knowing where
the victim was or what she was doing. Key's said when petitioner
pulled up next to the victim it was "at" "or" before 8:11a.m. by
the phone records of when the victim tryed to call Keys, but did
not get threw, and the victim took off to Mobil "immediately",
arriving at 8:12:25a.m. on camera, thus "taking", lmin. and 25sec.
to drive from the so called contact place to the Mobil, (States
evidence and facts). However the Mobil video shows petitioner get­
ting off of interstate 70, making a left to go to Mobil, went in­
side Mobil, shopped, and left at 8:10:45a.m., not knowing where
the victim was or what she was doing. This means without knowing
anything about the victim he only had 15 seconds, to find out whe­
re she was, drive there, going past roads, parking lots, stop sig­
ns, then driving down a parking lot to pull up next to the victim.
16

So it took the victim 1% minutes to drive to the Mobil from where
she was parked, and it only took petitioner 15 sec. to drive the
same, not knowing the destination. Moreover the Mobil building al­
so blocks any view in the direction of Bass Pro, which you can not
see that parking lot anyway. The whole thing is impossible not to
mention that petitioner and the victim was still having sex, even
days before this, also proving that the victim was not scared to
be around petitioner, which the state had evidence of them being
sexual, raised in other claims, not in this petition. But that al­
so proves the lies by the state and Keys.
Please see (Appendix H), of the amended 29.15 PCR, claim 8&9
(c)(ll). See (Appendix I), of the 29.15 appeal brief, claim XI.
See (Appendix M) of a pro se application to transfer, claim 2(c).

.•u

All the above is this known perjured testimony of Amber Keys.
Please see (Appendix X) where this argument is laid out with
accurate times, with exhibit:numbers of still pictures from Mobil
which has petitioner arriving, shopping, leaving, and has the vic­
tim arriving/leaving, also includes still pictures of the Adminis­
tration Building with petitioner driving by after leaving Mobil,
all proving the known perjured testimony of Amber Keys. The exhib­
its listed in appendix X, is located in the packet of exhibits
which is (Appendix V). Both appendix X and V are here in incorpor­
ated and reiterated for facts and evidence to prove this argument.
Thus Missouri courts refused to apply/correctly apply the material
evidence of videos, phone calls, and driving times to correctly
evaluate a Napue v. Illinois 360 U.S. 264 (1959) violation, and
incorrectly applyed Napue to the claim at all.
Thus petitioner was denied his United States Constitutional
Amendment Rights 1,5,6,14 and Missouri Bill of Rights Article 1,
section 14. As petitioner was denied access to the courts, equal
protection of the laws, and due process. Therefore this Writ of
Certiorari should issue and uphold petitioners Rights.
17

III.

WHETHER THE CIRCUIT COURT OF ST.CHARLES COUNTY MIS-

SQURI, THE MISSOURI COURT OF APPEALS FOR THE EASTERN DISTRICK,
AND THE MISSOURI SUPREME COURT, DENIED PETITIONER, DUE PROCESS,
EQUAL PEOTECTION OF THE LAW, AND ACCESS TO THE COURTS, AS THOSE
COURTS REFUSED TO APPLY OR CORRECTLY APPLY "FUNDAMENTAL FAIRNESS"
TO PETITIONERS CLAIMS, EVEN AFTER ACKNOWLEDGING THEIR OWN EXCEPT­
ION TO RAISE DISCOVERY VIOLATIONS IN A 29.15 PCR, WHICH WAS FOR
FUNDAMENTAL FAIRNESS RIGHTS. WHEN THE RECORD SHOWS PETITIONER WAS
DENIED BEING ABLE TO PUT ON A COMPLETE DEFENSE AS THE STATE REFU­
SED DISCOVERY OF VIDEOS AND TIMED TRAVEL ROUTES AND MORE.

Petitioners 29.15 amended motion contained nine discovery
violations along with his Brady violation. New counsel Thompson
only appealed two of them, Which would destroy the states case,
appealed as claims VIII, IX (which was amended claims 8&9(c)(5),
(6)). The Missouri State Appeals Court ED, after admitting to an
exception to raising discovery violations in a 29.15 PCR, which is
for "Fundamental Fairness", turned around and refused to apply/or
correctly apply this fairness to petitioners claims, see the
state court responses, (appendix _Q

).

The United States Supreme Court, say that "Fundamental Fairness" is a fairness that

"requires",

a defendent to be afford-

ed a complete defense, California v. Trombetta 467 U.S. 479(1984).
Petitioners amended motion claims 8&9(c)(5) actually said
that this discovery violation "prevented" petitioner from challen­
ging the state's timeline, causing his trial to be "Fundamentally
unfair", Amended 29.15 PCR motion p.66,67, case #1411-CC00186.
18

Which is the reason why Missouri courts granted a discovery violaion in Buchli 242 S.W.3d 449, which was also video footage that
challenged the states timeline. However refused petitioner. Petit­
ioners amended 29.15 PCR claim 8&9(c)(6), said; Without this disc­
overy, trial counsel was at a disadvantage in terms of challenging
the states "critical evidence", amended 29.15 PCR, p.67,68. More­
over petitioners pro se 29.15 PCR stated that petitioner was deni­
ed "Fundamental Fairness" quoting Trombetta(supra), see the record
on appeal for the 29.15 PCR listed (supra), for the discovery/
Brady violations. [Amended 29.15 PCR, attached, (Appendix H)].
However the Missouri courts refused proper application of
Fundamental Fairness to deny petitioners claims in state courts,
refusing the United States Holdings in Trombette (Supra). Further­
more the state courts went against their own state laws to deny
these claims saying, they should have been in the direct appeal
instead of a 29.15 PCR. State said they were apparent at trial,
even though the trial transcripts are void of these discovery vio­
lations. Moreover the state courts know that if it's not in the
trial tr. then a public appointed defender is not going to raise
the claim as it is not a "Trial Error", if not mentioned in the
trial tr. as the appointed public defender does not have the trial
attorneys client file and has no idea if something was disclosed
or not, as the client file goes to the 29.15 PCR counsel not the
direct appeals counsel. Furthermore the state courts knew this as
their own case laws state this, that the courts misused, State v.
Carter 955 S.W.2d 548,

Tisius v. State 183 S.W.3d 207, as those

cases even say that the discovery violation has to come out during
trial. Most importantly is the fact that the state courts over­
turned a conviction for murder, do to a discovery violation of
videos that the state disclosed "part" of before trial, however
refused the defense the parts critical for them, thus it should
19

have been apparent at Buchlis trial however it was not mentioned
at trial nor the direct appeal, "BUT" in his 29.15 PCR where the
state courts granted Buchli a knew trial, but refuses petitioner
the same denying petitioner equal protection of the laws, Petitioner brought up the appeals courts errors in his pro se Application
to Transfer p.6,7,8 (Appendix M ), notwithstanding Buchli case
law, which appointed counsel used in his 29.15 PCR appeal on the
same claims and appeal, (Appendix I).
Please see both claims attached in (Appendix Y), of the state
refusing discovery of a driving reinactment, 29.15 PCR amended cl­
aim 8&9(c)(5) appealed as claim VIII, and the state refusing disc­
overy of a timed travel route "TIMES", 29.15 PCR amended claim 8&9
(c)(6) appealed as claim IX. All exhibits listed in appendix Y are
in the. packet of exhibits in (Appendix V). Both appendix Y and V
are here in incorporated and reiterated for facts and evidence to
prove this argument. Appendix Y lays out the facts and evidence to
both claims, and lays out Missouri Court errors in denying the cl­
aims and refusing to correctly apply the "Fundamental Fairness"
prong of California v. Trombetta 467 U.S. 479 (1984).
Both claims above were raised in the Amended 29.15 PCR see
(Appendix H), both claims appealed see that brief (Appendix I).
Both claims are in the Application to transfer in the Missouri
Supreme Court, by counsel (Appendix L), pro se (Appendix M).
Thus petitioner was denied his United States Constitutional
Amendment Rights 1,5,6,14 and Missouri Bill of Rights Article 1
sections 14. As petitioner was denied access to the courts, equal
protection of the laws, and due process. Therefore this Writ of
Certiorari should issue and uphold petitioners United States
Constitutional Rights.

20

IV.

WHETHER THE CIRCUIT COURT OF ST.CHARLES COUNTY MISS­

OURI, MISSOURI COURT OF APPEALS OF THE EASTERN DISTRICT, AND THE
MISSOURI SUPREME COURT, DENIED PETITIONER, DUE PROCESS, EQUAL
PROTECTION OF THE LAW, AND ACCESS TO THE COURTS, AS THOSE COURTS
REFUSED TO CORRECTLY APPLY, STRICKLAND V. WASHINGTON 466 U.S. 668
(1984) TO COUNSELS DUTIES, AND FAILED TO CORRECTLY APPLY THE PRE­
JUDICE PRONG. WHEN THE RECORD UNDENIABLY SHOWS THAT TRIAL COUNSEL
REFUSED/FORGOT TO CALL AN ALIBI WITNESS THAT WOULD/DOES CORROBOR­
ATE ANOTHER ALIBI WITNESS, BOTH OF WHICH PETITIONER DOES NOT PER­
SONALLY KNOW, COUNSEL REFUSED TO PUBLISH TWO VIDEOS TO THE JURY
TO DECIMATE THE STATES CASE, AND COUNSEL STIPULATED TO THE CHAIN
OF CUSTODY TO A DETECTIVE DAN MAIXNER1S VIDEO SURVEILLANCE.

Missouri courts refused to apply and/or correctly apply,
Strickland v. Washington 466 U.S. 668 (1984), and refused to/or
wrongly applyed counsels duties and performance under Strickland.
Petitioner filed many pro se and amended claims throughout
his case and he abandons none of them, however do to the length
of this petition, and time restraints, petitioner will only raise
a few of them and prays this court will look into the rest of them
for trial counsels compounded effect of ineffective assistance.
Petitioners amended 29.15 PCR raised eighteen claims of inef­
fective assistance of counsel, claims 8&9(a)(l), through (a)(18).
New counsel Mr.Thompson only appealed seven of these eighteen cla­
ims as, 29.15 PCR appeal claims, I, II, III, IV, V, VI, VII.
In amended claim VI, is a claim that defense counsel was ine­
ffective as he failed to call an alibi witness (petitioner did not
personally know), a Dennis Delbruggie. Petitioner was given an
evidence hearing on this claim, in which counsel admitted he did
not know if this Delbruggie would corroborate the other alibi witness, Patty Conklin or not, PCR Hr. Vol.2, p.58. Furthermore coun­
sel admitted he did not know why he did not call Delbruggie as a
21

witness to testify, (29.15 PCR Hr. Vol.2, p.44). Counsel also adm­
itted he did not talk to Delbruggie even though he had the report
from PDI investigators who counsel hired, which said Delbruggie
remembered petitioners van, how he drove

and the day in question,

29.15 PCR Hr. Vol.2, p.34. All the above proves that there was no
trial strategy not to call Delbruggie
The circuit court judge at the 29.15 PCR hearing said, she
took what Delbruggie said to PDI investigators as true, PCR Hr.
Vol,2, P.64-69, and that petitioner was at the park on the day in
question same pages. The judge also said Delbruggie s testimony
"does" corroborate Conklins testimony. The above also proves that
trial counsel was deficient and that his deficiency/ineffectiveness prejudiced petitioner, for not calling Delbruggie as a witne­
ss to corroborate Conklins testimony and prove a concrete timeline
of petitioners whereabouts on the day in question, establishing
his innocence. Furthermore both Conklin an Delbruggie were at the
Rockford Beach Park when petitioner was, and where petitioner told
police he was. The police -.sent a K-9 unit to the same park where
they picked up petitioners scent. All proving that petitioner was
indeed at this park and that, that is what he told police.
Defense counsel at trial asked a detective if he knew if
there were dogs, K-9 unit sent to the park, he answered yes but
he was not involved with that trial tr. 749

That witness could

not give a detailed account of the K-9 unit findings. However
counsel had the police reports which mentioned all the information
counsel needed to depose, and call the K-9 unit handler to testify
at trial to corroborate both Conklin and Delbruggie*s testimony
and counsel failed to do this, see pro se 29.15 PCR claim 211 »
which was appealed to every court, also part of the 29.15 PCR
record on appeal as, ED107728 Appeal Document #149,p.26, through
22

p.33, however it is missing 3-4 pages do to counsels ineffective­
ness on scanning legal documents for court files, but the pages
are on file at the circuit court level. The above all proves that
counsel did not test the states case with a meaningful adversarial
testing as in Strickland(supra).
Please see (Appendix Z, -29.15 PCR amended claim 8&9(a)(15),
appealed as claim VI). There are three different claims in append­
ix Z. This claim in appendix Z lays out in detail with facts and
evidence, the proof to prove this argument. All exhibits listed in
Appendix Z are attached in (Appendix V). Both appendix Z and V are
here in incorporated and reiterated for facts and evidence to pro­
ve this argument.
Futhermore trial counsel refused to publish and show the jury
two different videos, which would have decimated the states case
and proven petitioners innocence.
The first video is of a Walter's Jewelry Store which the sta­
te said petitioner turned around in the parking lot, on video at
2:24p.m., after the victims murder, and that this is what the sta­
te based their timeline and case off of. The state used this at
the Grand Jury Hearing to get an indictment, then used it at trial
to convict petitioner, BUT REFUSED TO SHOW THE JURY THE VIDEO OR
STILL PICTURES FROM WALTER'S AT 2:24p.m. FOR THE JURIES CONSIDERA­
TION. Trial counsel had every opportunity to cross-examine state
witness Brett Jansen with the video and still pictures of Walter's
to decimate the states case as counsel did in the deposition, but
refused.iAfter trial the state changed toon trying to say counsel
disputed Jansen's testimony without the video, and that Jansen
said he could not tell if it was petitioner or not. However Jansen
at trial said he believed it was petitioner, trial tr.734,735.
Therefore counsel had a duty to publish the Walter's video to the
jury for their determination and would of seen it wasn't petitionr.
Please see (Appendix Z, -29.15 PCR amended claim 8&9(a)(5),
23

appealed as claim II). There are three claims in Appendix Z, this
is the second claim, which lays out in detail, facts and evidence
with trial transcript pages, still photos and refutes the states
opinion/findings/judgement, and everything there in proves this
argument. All exhibits listed in appendix Z are attached in (Appe­
ndix V). Both appendix, Z and V are here in incorporated and reit­
erated for facts and evidence to prove this argument.
The second video is a Taco Bell video which decimates the st­
ates case on many levels, and proves petitioners innocence.
This Taco Bell video disproves the states case, where the st­
ate said petitioner arrived at Taco Bell between 3:03 and 3:04p.m.
because of a drink dispencer, despencing a clear liquid like water.
However the dispencer, dispenced a black liquid, "soda", not a cl­
ear liquid, and counsel had a duty to publish this video at this
time to the jury for the jury to see, that the states timeline is
once again wrong, when state witness Brett Jansen said this. Furt­
hermore the Taco Bell video shows petitioner in his van in the
drive thru a few minutes after 2.p.m. which proves petitioner cou­
ld never of been around the crime scene, as there was no time and
petitioner drove straight to Taco Bell from the Court House. Coun­
sel again had a duty to publish this part of the video to the jury
when counsel asked state witness Jansen, "if petitioner is anywhe­
re else or at any of these locations at a DIFFERENT TIME, it would
blow your timeline, Jansen said yes, but counsel failed/refused to
show the jury the Taco Bell at both these times.
Please see (Appendix Z, -29.15 amended claim 8&9(a)(6),
appealed as claim III). There are three claims in Appendix Z, this
claim is the third claim, which lays out in detail, facts and evi­
dence with trial transcript pages, still photos, and refutes the
states opinion/findings/judgement, and everything there in proves
this argument. All exhibits listed in appendix Z are attached in
(Appendix V). Both appendix, Z and V are here in incorporated and
reiterated for facts and evidence to prove this argument.
24

Likewise trial counsel was ineffective for stipulating to the
chain of custody and admission to the states timeline consisting
of video surveillance footage as prepared by detective Dan Maixner.
Detective Maixner viewed alot of video, enhanced and filtered
these videos, then comprised what he thought was evidence of the
victim and petitioner at different times through out the day.
Since it was Maixner's beliefs and Maixner changed/enhanced/filtered these videos, then only Maixner could give account to any and
all the videos used by the state. Counsel's stipulation to this
denyed petitioner his rights to confrontation as in Crawford v.
Washington 541 U.S. 36 (2004), and denied petitioner the ability
to find out what all Maixner did to the videos. State courts
never addressed petitioners confrontation rights violated.
No state court considered or talked about petitioners rights
to confrontation, at all, let alone under Crawford(supra). Had the
courts considered petitioners rights to confrontation under Crawford(supra), it would have shown counsels ineffectiveness, for
allowing such wrong. Please see petitioners arguments in his 29.15
PCR amended motion claim 8&9(a)(ll), along with claim IV in the
29.15 PCR appeal, rehearing, application to transfer, and the 29.
15 PCR appeals briefs reply brief, (Appendix H,I,K,L,R), see the
Missouri Appeals Courts, opinion, (Appendix Q) , asxihaixsBHKtxxc:
Please see (Appendix; ZZ).,-i which: lays out facts, evidence and
the states opinions refuted. All exhibits listed in appendix ZZ
are attached in (Appendix V). Both appendix ZZ,V are here in inco­
rporated and reiterated, to prove this argument.
Everything above proves counsels performance fell below that
of a competent attorney, and counsel did not vigorously test the
states case, as Strickland v. Washington 466 U.S. 668 (1984), says.
Thus petitioner was denied his United States Constitutional
Amendment Rights 1,5,6,14 and Missouri Bill of Rights Article 1,
section 14, as petitioner was denied access to the courts, equal
protection of the laws, and due process. Therefore this Writ of
Certiorari should issue and uphold petitioners Rights.
25

V.

WHETHER THE CIRCUIT COURT OF ST.CHARLES COUNTY MISSO­

URI, THE MISSOURI COURT OF APPEALS FOR THE EASTERN DISTRICK, AND
THE MISSOURI SUPREME COURT, DENIED PETITIONER, DUE PROCESS, EQUAL
PROTECTION OF THE LAW, AND ACCESS TO THE COURTS, AS THE MISSOURI
APPEALS COURT AND SUPREME COURT, ACKNOWLEDGED IN THEIR OPINION
AND JUDGEMENT, THAT PETITIONERS 29.15 PCR APPOINTED COUNSEL DID
NOT INCLUDE SPECIFIC MATERIAL FACTS IN THEIR AMENDED MOTION AND
THEREFORE DENIED THE CLAIMS AND 29.15 PCR, DENYING PETITIONER
EFFECTIVE ASSISTANCE/ADEQUATE ASSISTANCE OF 29.15 PCR COUNSEL IN
THE PCR'S INITIAL COLLATERAL ATTACK. AS DECIDED IN, MARTINEZ V.
RYAN 132 S.Ct 1309 (2012).

It's cristal clear by the Missouri Court of Appeals Eastern
Districk's Memorandum Supplementing Order, Affirming Judgement,
Pursuant to Rule 84.16(b), see (Appendix Q ), that the appeals
court said, specific material facts were not included in the amen­
ded 29.15 to prove the claim, and said these material facts were
listed in the 29.15 PCR appeal, but that, that is why the claim is
in error. The appeals court said petitioner tryed to "refine" the
claim on appeal, see page 10 of the appeals courts judgement
(above), for 29.15 PCR appeal claim III, (amended claim 8&9(a)(6),
pro se claim 65,147). Appeals court judgement p.10 says:
"Movant failed to allege in his amended motion, the Taco Bell
video would have shown the drive thru attendent dispensing a
"dark liquid", and contradicted testimony by the state's
witness that the Taco Bell video was of poor quality. Defec­
ts in post-conviction relief pleedings can not be remedied
A
by the ........ refinement of a claim on appeal,
post-conviction claim on appeal that materially differs from
that alleged in a post-conviction motion preserves nothing
for appellate review and is "waived",".
The Appeals court continues in the same claim on another material
26

fact, on their p.10 and p.ll of their judgment, saying:
"Movant also argues, trial counsel should have admitted
"another" video to prove he was at the Taco Bell drive thru
at 2:08p.m. to contradict testimony that movant was at Taco
Bell at 3:04p.m., However, movant has failed to plead facts
demonstrating he is entitled to relief. Movant did not alle­
ge in his "amended" motion this "additional" "video" would
have shown he was present at Taco Bell at 2:08p.m.".
The appeals court is in great error on many levels as: Petitioners
"pro se" 29.15 PCR "did", infact mention that the drink dispencer
at Taco Bell at the states time of 3:03-3:04 despenced a "dark
black liquid" which proves Brett Jansens lies and disproves the
states case, pro se claims 65 together with claim 147, record on
appeal dsKmasui #ED107728, document #142 p.6-8, and document #145
p.2-5. The amended motion mentioned enough detail on this to get a
evidence hearing as well see pages (Appendix Z, 3rdclaim), this pet­
ition already argued, here in incorporated and reiterated.
Futhermore the appeals court leans heavely on "an additional
video" of Taco Bell, to deny this claim. However there is "NO"
additional video, it is the same video. A Taco Bell video at diff­
erent times on the same video, which the amended motion does list.
But if this was the case, Missouri granted relief to others for
this very issue, of videos and different times, Buchli 242 S.W.3d
449. For the above listed issues, see the pro se claims 65,147,
listed (supra), see also the amended motion claim 8&9(a)(6) p.25,
26, (appendix
(Appendix

I

H

), see also the 29.15 appeal claim III p.64-68,

).

The bottomline is, the Appeals court said the amended motion
did not list material facts that the 29.15 PCR brief did, when
29.15 PCR amended counsel had the material evidence, this shows
ineffective assistance of 29.15 PCR counsel in the initial collat­
eral attack, when petitioner is afforded competent counsel at the
29.15 PCR initial stage, under Martinez v. Ryan 132 S.Ct 1309
42012).
27

For more fact/evidence and argument to this issue on this amended
claim 8&9(a)(6), appealed as claim III, see (Appendix Zy;3rd claim),
incorporated and reiterated here in.
Furthermore the Appeals courts judgment listed(supra) also
states the same on claim XI p.32 last paragraph that:
"Movant failed to allege in his amended motion that other
evidence showed his vehicle driving past the St.Charles
Administration Buid. at 8:18a.m., thus he had no time to
confront the victim as Keys described".
However and again petitioners pro se motion mentioned this. Petit­
ioner went over this with appointed counsel many times, counsel
said she did not have to put every fact in the 29.15 PCR amended
motion as that is what an evidence hearing is for. But for 29.15
PCR counsel to know this evidence putting it in the 29.15 PCR appeal in their brief p.113, (Appendix

I_), but did not mention it

in their initial amended 29.15 motion from the start also proves
ineffectiveness/inadequateness of 29.15 counsel by it's self.
Please see (Appendix, X; last ,3 -pages) , about amended claim 8&9(c)
(11), appealed as claim XI,

here in incorporated and reiterated

for more facts and argument

to this issue.

Therefore if appointed

counsel did not list the facts known

to him/her in the amended motion, but was mentioned in the 29.15
PCR appeal as well as the pro se 29.15 PCR, which facts prove the
claim and would grant an evidence hearing, then the Missouri Appe­
als court and Missouri Supreme Court should of said counsel was
ineffective under Martinez v. Ryan (supra), and should have reman­
ded the case back to the Circuit Court for further pleadings and
litigation with an evidence hearing.
However under MO Supreme Court Rule 29.15 (infra), the pro
se 29.15 PCR is the motion which starts the cause and is not abandoned therefore the courts should have reviewed "all" the above
issues/evidence regardless of appointed counsels amended motion,
notwithstanding the facts that petitioner filed motions in every
28

state court, appealing his pro se 29.15 PCR motion throughout the
whole 29.15 PCR process, which put the Missouri courts on point to
all the above evidence that the courts try to say was not mention­
ed in the post-conviction motion. Either way the Missouri Courts
are in error and denied petitioner, due process, access to the
courts, and equal protection of the laws. Bottomline the Missouri
Courts denied petitioner effective/adequate counsel in his 29.15
initial collateral attach as required by Martinez v. Ryan (supra).
In addition petitioner filed a pro se Application to transfer in
the Missouri Supreme Court, putting that court on notice of the
Missouri Appeals Courts error, which the MO Supreme Court turned a
blind eye to, see (Appendix M,N

).

Lastly,Missouri is a fact pleading state, however do not sta­
nd for the proposition that to Rule 29.15 must allege every "fact"
underlying a claim. Rather, the law in Missouri is that the motion
must make more than a general allegation and must allege facts,
not conclusions, quoted from Buchli 242 S.W.3d 449. This Buchli
case was won by the 29.15 PCR petitioner and the state courts said
the above statement in support of his cliam, but the same courts
turn around and nocks this petitioners 29.15 PCR motion in the
head and denys petitioner an evidence hearing on his claims becau­
se appointed counsel didn't mention "all" the facts to the claims
in the amended motion. Denying petitioner access to the courts
equal protection of the laws, and due process.
This writ should issue for all the above reasons, as petitio­
ner was denied his United States Constitutional Amendment Rights
to Due Process, Access to the courts

Equal Protection of the laws.

including Amendments 1,5,6,14 of the United States Constitution,
as well as Missouri Bill of Rights Article 1 sections 14.

29

WHETHER THE CIRCUIT COURT OF ST.CHARLES COUNTY MISS­
VI.
OURI, THE MISSOURI COURT OF APPEALS FOR THE EASTERN DISTRICK, AND
THE MISSOURI SUPREME COURT, DENIED PETITIONER, DUE PROCESS, EQUAL
PROTECTION OF THE LAW, AND ACCESS TO THE COURTS, AS THOSE COURTS
DENIED PETITIONER 29.15 PCR RELIEF AFTER THE MOTION COURT JUDGE
ADMITTED ON RECORD THAT AN ALIBI WITNESS, DENNIS DELBRUGGIE, WHO
PETITIONER DOES NOT PERSONALLY KNOW, AND THAT DEFENSE TRIAL COU­
NSEL REFUSED/FORGOT TO CALL, "THAT HIS TESTIMONY WOULD OF INFACT
CORROBORATED THE OTHER ALIBI WITNESS, PATTY CONKLIN". WHEN THE
RECORD SHOWS THAT PATTY CONKLIN PLACED PETITIONER AT A PARK WHERE
PETITIONER TOLD POLICE HE WAS AT, AROUND 2P.M., WHICH PROVES PET­
ITIONERS INNOCENCE AND CORROBORATES THE TACO BELL VIDEO.
Petitioner was granted an evidence hearing on his amended
29.15 PCR claim 8&9(a)(15), appealed as claim VI, attched in
(Appendix Z, first nine pages which is the first of three claims).
Appendix Z, is here in incorporated and reiterated for facts and
evidence which proves this argument. This claim was about ineffec­
tive assistance of trial counsel for not calling an alibi witness,
Dennis Delbruggie. At the hearing defense trial counsel admitted,
he did not talk to Delbruggie even though his investigators did,
said, he did not know if Delbruggie would corroborate Cocklins
testimony or not, said, he did not know why he did not call Delbr­
uggie to testify, (29.15 PCR Hr. Vol.2, pages 30-32, 44,58), att­
ached in (appendix U).
The circuit court judge at the 29.15 PCR hearing said; Dennis
would corroborate Concklins testimony, said she believed what
Dennis Delbruggie told the investigators as true, and said petit­
ioner was at the park on the day in question, (29.15 PCR Hr.
Vol.2, pages 64-69), attached (Appendix U).
The corroberation is huge, proving a viable defense as two
alibi witnesses who do not personally know the defendent would be
more convincing then one. Moreover Cocklin remembered the time of
the day, as Delbruggie remembered the day.
Please see (Appendix Z, first nine pages), as this issue is
30

laid out with alot more facts, evidence, trial and 29.15 hearing
transcripts, and peices together how both witnesses corroborate
each other along with the Taco Bell videos, and K-9 unit.
The above proves trial counsels ineffectiveness, and that th­
ere is MN0" reason why the judge should have denied relief and the
29.15 PCR as the judge admitted to Delbruggie's important corrobo­
rating testimony. Thus the Missouri appeals court and Supreme cou­
rt also errored in denying petitioner relief after receiving all
this information on this claim see (Appendix A,F,I,K,L,M).
A claim where a defense attorney refuses to call alibi witne­
sses to testify, does constitute ineffective assistance of counsel,
Schmedeke v. State 136 S.W.2d 532, Summers v. State 154 S.W.3d
2005, Williams v. State 8 S.W.3d 217. Trial counsels failure to
test the states case with meaningful adversarial testing, constit­
utes ineffective counsel, Strickland v. Washington 466 U.S. 668.
Thus all the above proves petitioner was denied, due process,
equal protection of the laws, and access to the courts, thus
petitioner was denied his United States Constitutional Amendment
Rights 1,5,6,14, and Missouri Bill of Rights Article 1 section 14,
and thus proves why this Writ of Certiorari should issue.

VII.

WHETHER THE CIRCUIT COURT OF ST.CHARLES COUNTY MIS­

SOURI, THE MISSOURI COURT OF APPEALS FOR THE EASTERN DISTRICK,
AND THE MISSOURI SUPREME COURT, DENIED PETITIONER, DUE PROCESS,
EQUAL PROTECTION OF THE LAW, AND ACCESS TO THE COURTS, AS THOSE
COURTS GROSSLY MISTATED/MADE UP, OR REFUSED, MATERIAL FACTS TO
DENY PETITIONERS 29.15 PCR MOTION, WHEN THE RECORD UNDENIABLY
SHOWS THE TRUE MATERIAL FACTS.
All state courts did this on alot of claims. For space saving
reasons petitioner will raise a few and prays that this court will
read every amended 29.15 PCR claim, all 29.15 appealed claims,
then read all state

findings in each court, (Appendix H,I,K,L,M,
31

N,0,P,Q,R,S).
The Missouri Court of Appeals E.D., "ADDED" material facts
that do not exsist in order to deny petitioners, 29.15 PCR amended
claim 8&9(a)(6), appealed as claim III. The court said in their
opinion/judgement (appendix Q), on this claim that petitioner men­
tioned an "additional", Taco Bell video, that was not mentioned in
the amended 29.15, but was mentioned in the 29.15 PCR appeal. The
truth is that the claim on the 29.15 PCR and the appeal were both
the same and there is no "additional video" it's all the same vid­
eo, see claims in both the 29.15 PCR and appeal (appendix H,l).
See also (appendix Z, third claim, everything laid out in detail).
The Missouri Court of Appeals E.D., made up material facts to
petitioners known perjured testimony claim, amended as 8&9(c)(ll),
appealed as claim XI, saying that two parking lots are next to ea­
ch other when infact they are not. They are seperated by roads,
and other parking lots inbetween. See court findings (Appendix Q),
see the amended and appealed claims (Appendix H,l). See (Appendix
X) were this claim and facts are laid out in detail, see also the
trial exhibit A which shows the two parking lots. The Missouri
Appeals Court E.D. also refused the travel times along with the
time the victim arrived at Mobil, and the time the victim tried to
call Amber Keys, all prove the known perjured testimony of Keys.
See (Appendix X) with more facts and evidence with still pictures
to prove this very claim. See also the state courts findings,
(Appendix Q), and the amended claim and it's appeal, (Appendix H,l).
The Missouri Court of Appeals made up statements that "they"
say, petitioners trial counsel said at the 29.15 PCR hearing that
he really did not say. See amended claim 8&9(A)(11), appealed as
claim IV, (Appendix H,l), see also the state courts findings,
(Appendix Q), then see the motion for rehearing, and motion to
transfer in the Missouri Supreme Court Claim IV, (Appendix L,M).
See also petitioners, appeals breif's "reply brief" claim IV,
(Appendix R). See (Appendix ZZ) this claim laid out with detailed
facts and evidence.
32

The Missouri Court of Appeals E.D. refused video of the
Administration Building in amended claim 8&9(c)(ll), appealed as
claim XI, see above listed appendix's on this claim.
The Missouri Appeals Court E.D. "refused" to apply the 1983
lawsuit against officer Hunt, and St.Charles County, to the
Brady claim, amended claim 8&9(c)(10), appealed as claim X, (appe­
ndix H,l), and (Appendix K,L), see the states findings (Appendix
Q). See (Appendix W) of facts, and evidence laid out in detail.
Petitioner incorporates and reiterates Appendix W,X,Y,Z,ZZ
of facts, evidence and the state courts findings refuted to prove
this argument.
The Missouri Supreme Court signed off on everything the Miss­
ouri Appeals Court E.D. said, did in there findings, (Appendix A).
Missouri Circuit Court, Appeals Court E.D, and Supreme Court
refused petitioner an evidence hearing on 28 of his amended claims
which all had merit, and all of them listed facts. Missouri is a
fact pleading case, and does not require all facts to be plead in
the form 40,or 29.15 PCR as that is what an evidence hearing is
for, Buichli 242 S.W.3d 449. The Missouri courts ruled in favor of
the prosecutor, who said things without evidence/proof to deny the
evidence hearing on those 28 claims. See the states first response
to the amended motion which is full of lies, (Appendix 0).
Petitioners amended motion listed material facts from videos
which proved his claim, 8&9(c)(ll), stateing that petitioner
arrived "before" the victim. The prosecutor lied in his response
to this claim see (Appendix 0, p.15), saying that the victim arri­
ved "before" petitioner. The circuit court refused an evidence
hearing, when the video was the proof, and the only way to conclu­
de the disputed facts. Furthermore the prosecutor "AFTER" the evi­
dence hearing on different claims, changed their findings to this
claim

now saying, the victim arrived "after" petitioner, but the­

re was no evidence hearing on this claim, how can the state now
change the material facts of findings, and the court accept "both"
33

of them each time, but denying to listen to petitioners pleadings,
see the prosecutors second set of findings on this claim the judge
adopted, filed 11/15/17, adopted by the judge 2/13/19, (Appendix P,
pages 20,21). Thus proves petitioner should of had an evidence
hearing in the first place as he was telling the truth. Proves th­
at the state agent is willing to lie to get what he wants, to keep
from an evidence hearing where more evidence will come out that
was kept from the jury. Proves petitioners claim is true and he
deserves relief.
Thus all the above proves petitioner was denied, due process,
equal protection of the laws, and access to the courts, thus peti­
tioner was denied his United States Constitutional Amendment
Rights 1,5,6,14, and Missouri Bill of Rights Article 1 section 14,
and thus proves why this Writ of Certiorari should issue.

VIII.

WHETHER THE CIRCUIT COURT OF ST.CHARLES COUNTY

MISSOURI, THE MISSOURI COURT OF APPEALS FOR THE EASTERN DISTRICK,
AND THE MISSOURI SUPREME COURT, DENIED PETITIONER, DUE PROCESS,
EQUAL PROTECTION OF THE LAW, AND ACCESS TO THE COURTS, AS THOSE
COURTS DENIED PETITIONER THE ABILITY TO PROPERLY LITIGATE AND
RAISE "ALL" HIS CLAIMS/GROUNDS IN STATE COURTS, OF HOW PETITIONERS
UNITED STATES CONSTITUTIONAL RIGHTS WERE VIOLATED, CLAIMS OF;
PROSECUTORIAL MISCONDUCT OF, KNOWN PERJURED TESTIMONIE[S], BRADY/
DISCOVERY VIOLATIONS, LYING TO THE JUDGE DURING BENCH ARGUMENTS,
OVER 60 CLAIMS OF PROSECUTORIAL MISCONDUCT AND INEFFECTIVE ASSIS­
TANCE OF TRIAL AND APPELLATE COUNSEL. WHEN THE RECORD SHOWS THAT
PETITIONER DID EVERYTHING HE COULD TO HAVE THESE CLAIMS HEARD.

34

Petitioner has a right under Missouri Supreme Court Rule,
29.15 [including 29.15(a),(d)], to raise "every" known state
and United States Constitutional violations in his case, as he is
suppose to list every one of them in his pro se 29.15 PCR form 40.
Once appointed counsel is appointed, counsel by the same rule, MO
Supreme Ct. Rule 29.15(e), is suppose to ascertain whether suffic­
ient facts supporting those claims are asserted, and whether SKXlK
that-motion included "all" claims^known to petitioner as a bases
for attacking the judgement and sentence, and "if" the motion does
not, counsel shall file an amended motion that sufficiently alleg­
es the "additional" facts and claims.
At no time does the MO Supreme Ct. Rule 29.15, give any atto­
rney nor any judge the ability nor power to amend away, cancel or
neglect to hear hold evidence hearings or adjudicate any claim
that petitioner raised in his pro se 29.15 PCR form 40. Counsel is
only to add on to the claims and add onto the facts. The pro se
29.15 PCR form 40 is the motion that starts the cause, and can not
be discarded and replaced against petitioners wishes and something
else ruled on instead. Moreover state law Greene 494 S.W.3d 525
also guides the state courts for 29.15 PCR applicants to be allow­
ed to have all their claims adjudicated by a motion court.
Petitioner filed well over onehundred pro se claims in his
29.15 PCR form 40, which he stated he waives no claims and wants
all of them to be ruled on, see the whole record on appeal docume­
nts filed in the Missouri Appelas Court ED, under ED107728, if any
pages are missing do to counsels neglagence, the original is in
the motion court. Petitioners appointed counsel only raised 31
claims in her amended motion refusing to attach petitioners pro se
motion, leaving out exonorating claims such as, fingerprint disco­
very violations, from prints left on the victims car that the perp.
35

drove from the crime scene.
The Missouri Courts refused to attach petitioners claims, fo­
rm 40 to the amended motion or rule on them seperately. The courts
would not have anything to do with the pro se claims, only acknow­
ledging the amended motion claims. Petitioner asked appointed cou­
nsel many times to attach petitioners pro se 29.15 PCR to her ame­
nded motion, to no avail. Petitioner filed many motions in the ci­
rcuit court of St.Charles County, to have his pro se motion attac­
hed to appointed counsels amended motion, the court took them und­
er advisement then denied them. Petitioner filed many motions and
briefs in the circuit court, appeals court, and Supreme Court in
Missouri (courts listed supra), to have an evidence hearing on all
his claims, to hear and adjudicate all his pro se and amended cla­
ims. All state courts refused. Please see (Appendix

J

) for

a letter/motion to the Missouri Appeals Court ED court clerk, with
an attached pro se Supplimental Appeals Brief and it's appendix.
In the appendix of the above supplemental 29.15 PCR Appeals Brief
are a bunch of motions petitioner filed to the circuit court to
have all his claims attached, hold evidence hearings on and to
adjudicate, likewise the courts orders denying them, as well as
letters to petitioners counsel to attach his pro se motion and
claims to hers. The above letter/Motion to the appeals court with
attached pro se Supplemental 29.15 PCR Appeals Brief, is the
avenue petitioner had to use to present his pro se claims to the
Missouri Appeals Court ED, please also see (Appendix

G ), for

that courts response and ruling on this letter/motion and brief.
Petitioner filed a pro se supplimental Application to the MO
Supreme Court to have all his pro se claims herd, hold evidence
hearings on and adjudicate them, court sent them back, petitioner
sent them back with another letter/motion explaining how he has a
right by Missouri and the United States to' have his claims ruled
on adjudicated, as well as an evidence hearing on them, see
36

(Appendix M,N).
All Missouri Courts denied petitioner an avenue to litigate,
and to raise all of his claims of how his rights under Missouri
and The United States that were violated. Thus refusing petitioner
access to the courts, equal protection of the laws, and due proc­
ess.
Likewise Federal Rule 2254 under A.E.D.P.A., and 01 Sullivan
v. Boerckel 526 U.S. 838,845, 119 S.Ct 1728, 144 L.Ed.2d 1 (1999),
says petitioner has the right and/or required to present his cons­
titutional violation claims through one full round in the state
courts. Petitioner has presented all these listed claims above to
every court in the state, above. Those courts have have refused
petitioner to litigate/raise, hold evidence hearings on or adjudi­
cate these claims, denying petitioner access to the courts/due
process/equal protection of the law. Petitioner quoted Federal
rules/laws in the state courts see motions listed(supra).
Moreover petitioner let the state courts know they are not
suppose to put up road blocks to keep petitioner from raising his
claims in state courts, quoting, Davis v.Wechler 263 U.S. 22, and
Clemmons v. Delo 124 F.3d 944, others.
Please see all pro se motions/letters/briefs/petitions ever
filed in state courts, concerning his 29.15 PCR process/motion/
claims. Please ask all Missouri Courts to forward all these to th­
is court as petitioner is indigent and does not have all the nece­
ssary funds to copy everything and for postage as this petition is
already numerous, Circuit Court of St.Charles County Missouri,
case #1411-CC00186, Missouri Court of Appeals ED, case #ED-107728,
and Missouri Supreme Court, case #SC98785.
The claims listed above, proves petitioners innocence of the
charges the state of Missouri is holding petitioner captive again­
st his will. These claims were raised in the above courts, see al­
so, all documents of the record on 29.15 PCR appeal, ED-107728,
for the 29.15 PCR pro se motion, see the letter/motion with
37

V

^

4)

attached pro se 29.15 PCR appeals brief and appendix, (Appendix J),
petitioner also raised all these claims in the Missouri Supreme
court see (Appendix M,N).
Furthermore all state courts refused an evidence hearing on
all petitioners pro se claims, filed in his pro se 29.15 PCR, whi­
ch is the action which starts the cause. Petitioner plead more
facts and evidence in his pro se 29.15 PCR then appointed counsel
did in her amended 29.15 PCR. Petitioner petitioned every court in
Missouri to hold evidence hearings on all his pro se and amended
29.15 PCR claims, see all motions listed(supra), see all briefs
listed(supra). Petitioner was refused an evidence hearing on all
of his pro se claims, as Missouri refused petitioner an avenue to
litigate his United States Constitutional Amendment Rights that
were violated in state courts.
All Missouri Courts listed above denied their own laws and
rules, as well as the laws and rules of the United States, in ord­
er to deny petitioner due process, equal protection of the laws,
and access to the courts, to deny to hear/hold evidence hearings
on and adjudicate petitioners claims. Thus denying petitioner his
United States Constitutional Amendments 1,5,6,14, and Missouri
Bill of Rights Article I section 14. Therefore this Writ of
Certiorari should issue.

38

m*

CONCLUSION
The claims in this writ, (Questions, and Reasons why this
writ should issue), all prevails under the United States Constitu­
tion, Amendments I, V, VI, XXIV. This writ proves that petitioner
was denied due process, access to the courts, and equal protection
of the laws. This writ also proves some of petitioners U.S. Const­
itutional Amendments that were violated, before during and after
petitioners trial.
Petitioner prays that this court will grant this writ of
certiorari, and grant relief to petitioner, for any one and/or
all of the issues raised here in. Petitioner prays that this court
will grant petitioner to be released from custody, retried with in
30-60 days, over turning petitioners conviction with prejudice do
to all the prosecutorial misconduct, police misconduct, judicial
misconduct in his case, or at the least to remand this case back
to state courts for further pleadings and instructions, however
the state courts did not care at any time they were petitioned by
petitioner nor his counsels, and it would morethanlikely be the
same if remanded.

Respectfully and Humbly Submitted

Aaron LaRose #1223972
E. R. D. C. C.
2727 Highway K
Bonne Terre MO 63628

39

